 UNITED STATES DEPARTMENT OF AGRICULTURE

          OFFICE OF INSPECTOR GENERAL



 STATEMENT OF THE HONORABLE PHYLLIS K. FONG

                 INSPECTOR GENERAL


                        Before the

           Subcommittee on Contracting Oversight

Senate Homeland Security and Governmental Affairs Committee

                    October 5, 2011
Good afternoon, Chairman McCaskill, Ranking Member Portman, and Members of the

Subcommittee. Thank you for the opportunity to testify about the Office of Inspector General’s

(OIG) work to help improve the Food and Nutrition Service’s (FNS) oversight of State agencies

and local school food authorities (SFAs) that contract with food service management companies

to provide meals for the National School Lunch Program (NSLP) and the School Breakfast

Program. 1 As both our audit and investigative work demonstrate, USDA and its agencies must

remain vigilant in their oversight of companies that provide food to the public under the auspices

of Federal programs.


I will begin my testimony with a brief summary of OIG’s mission and the work we do. Then, I

will outline how FNS administers NSLP before discussing our completed and planned work in

support of enhancing FNS’ oversight of food service management companies.


OIG’s Mission


OIG’s mission is to promote the economy, efficiency, and effectiveness of USDA programs and

operations by performing audits and investigations to reduce fraud, waste, and abuse. The

Inspector General (IG) Act of 1978 established a dual reporting responsibility, whereby IGs

report both to the head of their respective agencies and to Congress. 2 This unique reporting

relationship protects OIGs’ independence and objectivity as we conduct our oversight

responsibilities.


USDA OIG conducts audits designed to ascertain if a program is functioning as intended, if

program payments are reaching those they are intended to reach, and if funds are achieving their


1
  For simp licity and for the purposes of this statement, references to “NSLP” will generally include the School
Breakfast Program.
2
  5 U.S.C. app. 3, §§ 1-13.

                                                          1
intended purpose. When we find problems with the programs we assess, we make

recommendations we believe will help the agency better fulfill its mission. We do not have

programmatic or operating authority over agencies or programs; instead, agencies are responsible

for implementing our recommended corrective actions. We also conduct investigations of

individuals and entities that are suspected of abusing USDA programs—these investigations can

result in fines and imprisonment for those convicted of wrongdoing in addition to agency

disciplinary actions for USDA employees found to have engaged in misconduct.


NSLP Ove rvie w


FNS uses a multi- layered approach to reimburse States that provide meals to children under

NSLP. Typically, FNS enters into written agreements with State agencies, such as education

departments, to administer NSLP. These agencies, in turn, enter into agreements with SFAs to

deliver the program at the local level, such as at schools within a district. SFAs can either

manage the program themselves—buying and serving food—or they can contract with food

service management companies to provide meals. Federal funds flow from FNS to State

agencies, which reimburse SFAs based on the number of meals claimed. OIG does not provide

day-to-day oversight of FNS, State agency, SFA, or food service management company

interactions or administration of NSLP. Instead, to ensure program compliance, each NSLP

administrative level maintains oversight of the next.


In general, USDA regulations require food service management companies to pass savings and

applicable credits along to the SFAs with which they contract. These contracts can either be

fixed-rate or cost-reimbursable. In a fixed-rate contract, a management company charges a flat

rate for the meals served and must credit the SFA for the full value of any food USDA has



                                                 2
donated. 3 In a cost-reimbursable contract, a management company purchases and serves food

for an SFA and must submit invoices for payment; in this case, the company must pass along any

purchase discounts and rebates it receives. 4 Regardless of the type of contract, an SFA’s share of

Federal funds is based on the number of meals claimed.


In fiscal year 2010, approximately 43 million children participated in NSLP and the School

Breakfast Program, which together served an estimated 7.2 billion meals in 14,000 school

districts, with disbursements totaling approximately $12.5 billion in Federal funds.


Related OIG Audits


In 2002, OIG completed an audit of 8 food service management companies contracting with

65 SFAs in 7 States. 5 We determined that over half of the companies (5 of 8) improperly

retained $6 million in cost savings that should have been passed on to the SFAs with which they

contracted. Management companies with fixed-rate contracts received a total of $5.8 million in

USDA-donated food but did not credit this amount to their SFAs. This occurred both because

FNS requirements for companies crediting SFAs with the value of donated food were not clear,

and because some companies revised their contracts to retain savings that should have accrued to

the SFAs with which they contracted. The remaining $280,000 involved management

companies with cost-reimbursable contracts. Although the bid solicitations for the food service

work (i.e., requests for proposal) required that rebates, credits, and discounts be passed along to




3
  7 C.F.R. § 210.16(a)(6).
4
  7 C.F.R. § 210.21(f)(1)(i).
5
  The States were Illinois, M ichigan, M issouri, New Jersey, New Mexico, South Caro lina, and Washington. We
selected six of the States because they had either the highest number of food service management co mpany
contracts, or the highest percentage of SFAs using such companies. We reviewed the seventh State (Illinois) as part
of a jo int effort between our audit and investigation groups. Food and Nutrition Service National School Lunch
Program, Food Service Management Companies (27601-0027-CH, April 2002).

                                                         3
the SFAs, the companies that won the bids either modified their contracts to amend or eliminate

the requirement, or they ignored it.


In 2005, we followed up with an audit of one of the management companies that had cost-

reimbursable contracts with 298 SFAs in 22 States. 6 We found the company had violated its

contracts with 106 of the SFAs in 8 States by not crediting them with varying amounts of

discounts, rebates, and other cost savings it had received, totaling $1.3 million. 7 The eight State

agencies did not enforce the contracts and company officials claimed that keeping these savings

allowed them to lower overall prices. However, when we compared its prices to another food

service management company’s (which had also bid for the contracts), we found that it charged

significantly more for 29 of 35 identical items we reviewed. Even though the company kept its

cost savings, it still charged SFAs more for food than the other company would have.


Overall, our 2002 and 2005 audits recommended that FNS should establish specific contract

terms for State agencies and SFAs to use when contracting with food service management

companies. The terms would ensure that SFAs benefited from the value of food donated by

USDA (in fixed-rate contracts) and any discounts or rebates that companies received (in cost-

reimbursable contracts). We also recommended that FNS amend its regulations and guidance to

require these specific contract terms, that State agencies approve contracts prior to their SFAs

signing them, and that State agencies require SFAs to enforce contract provisions. In 2007, FNS




6
  The States were Arizona, Californ ia, Connecticut, Florida, Idaho, Kansas, Massachusetts, Michigan, Minnesota,
Missouri, New Hampshire, New Jersey, New Yo rk, Ohio, Oregon, Pennsylvania, Rhode Island, South Carolina,
Texas, Vermont, Washington, and Wisconsin. We selected them because the company’s contracts with SFAs in
these States provided for discounts and other savings to accrue to the company. Food and Nutrition Service
National School Lunch Program Cost-Reimbursable Contracts with a Food Service Management Company
(27601-15-KC, December 2005).
7
  The States were Arizona, Connecticut, Michigan, M innesota, Missouri, Rhode Island, South Carolina, and
Washington.

                                                        4
revised its regulations accordingly and, in 2009, FNS issued updated guidance to State agencies

and SFAs.


However, the issue of food service management companies improperly retaining savings that

should be passed on to SFAs continues to be a concern. In July 2010, after an investigation by

the State of New York’s Attorney General, a company agreed to a $20 million settlement to

resolve a lawsuit after it fraudulently retained discounts and rebates. The settlement prompted a

Member of the United States House of Representatives to request of the Secretary of Agriculture

that an audit be conducted to determine if this practice was happening in other school districts

nationwide.


Accordingly, OIG is initiating an audit this month (October 2011) to assess the effectiveness of

corrective actions implemented by FNS and State agencies in response to our previous

recommendations. We will also determine if food service management companies with cost-

reimbursable contracts are passing discounts and savings along to SFAs. We plan to examine a

sample of SFAs’ cost-reimbursable contracts with food service management companies

nationwide for fiscal years 2010 and 2011.


Related OIG Investigations


OIG investigations have demonstrated that the issue of food service management companies’

business practices extends beyond the practice of keeping savings owed to SFAs. For example,

in 2003, one of our investigations showed that a food service management company in

Greenwich, Connecticut, overcharged school districts and other customers over $8 million for

costs it never incurred. The company admitted that it had inflated invoices and made false

claims to the Government. In December 2008, in the U.S. District Court for the Southern


                                                 5
District of New York, the company agreed to pay over $3.5 million to the Government and to

reimburse the school district nearly $8.5 million.


Other types of food companies, such as suppliers, have also been subject to our investigations for

conspiring to sell or transport food illegally. For example, our investigations helped disclose that

the owner and employees of a food company in Houston, Texas, forged export certificates to

send food past its expiration date to Middle Eastern companies, including some that supplied

U.S. troops. 8 The owner was charged with conspiracy to defraud the Government through false

claims. In November 2010, the company and its owner entered into a settlement agreement with

the U.S. Attorney’s Office for $15 million. In December 2010, the Federal Court for the

Southern District of Texas sentenced the company’s owner to serve 2 years in jail and to pay a

$100,000 fine. In April 2010, a former purchasing agent for the company was sentenced to serve

3 years’ probation and to pay, with the owner, over $2 million in restitution.


Conclusion


In summary, OIG’s audit and investigative work has sought to enhance FNS oversight of food

companies participating in NSLP, and to help ensure that Federal funds intended to provide

nutritious meals are used for that purpose. OIG is committed to strengthening USDA and its

agencies’ controls over such companies in order to better safeguard both Federal funds and

NSLP objectives.


This concludes my testimony. Thank you again for inviting me to testify before the

Subcommittee, and I would be pleased to address any questions you may have.
8
 International health certificates for exported food and plant products originating fro m the United States are issued
by USDA’s Animal and Plant Health Inspection Service (APHIS) and must be completed by accredited
veterinarians. The export certificates help APHIS facilitate safe trade; monitor the movement of risk material;
protect against the introduction of pests and disease; regulate the import and export of plant and animal products;
and provide exporters with an understanding of import countries’ requirements.

                                                           6
